Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




ADVERSE EVENTS IN HOSPITALS:
  STATE REPORTING SYSTEMS




                    Daniel R. Levinson
                     Inspector General

                      December 2008
                     OEI-06-07-00471
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                            S U M M A R Y


                  OBJECTIVE
                  To identify and describe State adverse event reporting systems and how
                  States use the reported information.


                  BACKGROUND
                  The Tax Relief and Health Care Act of 2006 (the Act) mandates that the
                  Office of Inspector General (OIG) report to Congress regarding the
                  incidence of “never events” among Medicare beneficiaries. Never events
                  are a specific list of serious events, such as surgery on the wrong
                  patient, that the National Quality Forum (NQF) deemed “should never
                  occur in a health care setting.” Expanding beyond this specific list, this
                  and other OIG reports use the broader term “adverse event” which
                  describes harm to a patient as a result of medical care, such as infection
                  because of contaminated equipment.

                  This report describes State adverse event reporting systems as of
                  January 2008 in all 50 States and the District of Columbia (hereinafter
                  referred to as States). Our review is based on State documents, such as
                  regulations, policies and procedures, other materials that reference
                  adverse events, and aggregate reports of adverse events provided by
                  States with systems. We conducted structured interviews by telephone
                  with staff from each State who were responsible for either the State
                  adverse event reporting system or State oversight of patient safety in
                  hospitals.


                  FINDINGS
                  As of January 2008, 26 States had hospital adverse event reporting
                  systems and another State had taken action to develop one. Each of
                  the 26 States’ systems met the criteria that we used. They were
                  authorized through State law, had formal policies and procedures for
                  reporting, and were actively collecting data from hospitals. The
                  remaining 25 States did not have adverse event reporting systems,
                  although 1 State had passed legislation to authorize a system and was
                  developing policies and procedures. Many of the States’ systems were
                  relatively new, with 10 systems being operational for less than 3 years.

                  Reporting systems varied in terms of what events were reported,
                  criteria used for selection, and type of information reported.
                  Twenty-three States established their own lists of reportable adverse
                  events, and three States used NQF’s list of Serious Reportable Events.

OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S   i
E X E C U T I V E              S U            M M A R Y


                   State criteria for determining whether an event is reportable focus
                   primarily on the level of harm caused to the patient, although
                   additional criteria affect whether the same event would be reportable in
                   other States. Each of the 26 States’ systems had different requirements
                   regarding the information that must be included about the following:
                   the event itself, the patient involved in the event, the result of any root
                   cause analyses, and any corrective action plans and/or risk reduction
                   strategies.

                   Most States with systems reported having mechanisms to identify
                   underreporting and strategies to improve reporting. Staff from 15 of
                   the 26 States acknowledged that hospitals do not always submit reports
                   when adverse events occur. To identify specific instances of
                   underreporting, staff reported that their State: analyzes reported data
                   (11 States); compares hospital reports against complaints, referrals, and
                   administrative databases (16 States); and conducts onsite audits
                   (3 States). To motivate hospitals to report, States have several
                   strategies, including protection of reported data from improper
                   disclosure, monetary penalties for hospitals that fail to report, and
                   provision of feedback to hospitals about reported events.

                   Twenty-three States reported using data to hold individual hospitals
                   accountable; 18 reported using data to promote learning and prevent
                   adverse events. To hold hospitals accountable for their patient care
                   performance, staff from 23 of the 26 States with systems explained that
                   adverse event reports resulted in desk or onsite audits, and/or State-led
                   investigations of the hospitals’ handling of reported events. Four of
                   these States also reported using adverse event reports in licensing
                   decisions for hospitals. Eighteen of the twenty-six States use reports to
                   communicate with hospitals about best practices and Statewide
                   incidence of adverse events, to provide early warnings about specific
                   patient safety issues, and to provide details about specific events on
                   State Web sites. Of the remaining eight States, three had systems that
                   had been in operation for about 1 year at the time of data collection in
                   early 2008 and were still developing hospital communication
                   mechanisms and five States did not report using adverse event reports
                   to provide information to hospitals.


                   CONCLUSION
                   In the absence of both a national system and Federal guidelines
                   regarding State reporting systems, about half of the States have taken


 OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S   ii
E X E C U T I V E              S U            M M A R Y


                   the initiative to implement hospital adverse event reporting systems.
                   These systems appear to be disparate, with each tracking different
                   events, employing different reporting criteria, and requiring differing
                   accompanying information. The differences we found make State
                   adverse event reporting systems data unsuitable for use in the
                   aggregate to identify national incidence and trends. Despite these
                   distinctions among reporting systems, we noted that most States use
                   reported data in similar ways. To improve patient safety, States use
                   reports to assess individual hospitals’ responses to adverse events, and
                   also draw from reports to promote learning and prevent adverse events.
                   States may find that opportunities exist to expand their use of reported
                   data by employing methods used by other States. Finally, although the
                   26 States require hospitals to report adverse events when they occur,
                   staff from most of these States described mechanisms used to identify
                   underreporting. Beyond strategies currently being used, States may
                   find it prudent to consider other means to ensure reporting by hospitals.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   We received comments on a draft of this report from the Agency for
                   Healthcare Research and Quality (AHRQ) and CMS. AHRQ and CMS
                   provided positive comments on the draft report.

                   AHRQ called for greater precision when discussing the differences
                   between NQF’s list of Serious Reportable Events (formerly referred to
                   as “never events”) and CMS’s payment policies for hospital-acquired
                   conditions. Although this report does not examine CMS’s payment
                   policies, we will ensure that other OIG reports on this topic make these
                   distinctions clear.

                   CMS expressed its belief that the report should more clearly describe
                   the impediments facing the Federal Government and CMS in managing
                   data identifying adverse events given the existing fragmented systems.
                   According to CMS, data from State systems are not useful in
                   understanding national issues and trends because of the variability in
                   States’ identification of adverse events. We modified the report’s
                   conclusion to underscore that data from State adverse event reporting
                   systems are unsuitable for national-level analyses.

                   Because of the variability among State-based systems, CMS indicated
                   that it would be helpful to identify potential solutions, such as
                   amending the Patient Safety Act to make reporting of well-defined

 OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S   iii
E X E C U T I V E              S U            M M A R Y


                   adverse events mandatory. CMS also indicated that it would be helpful
                   to identify other partners in reporting system efforts, such as AHRQ. In
                   planning future work in this area, we will consider the issues addressed
                   in CMS’s comments.

                   Finally, CMS stated that it had recently issued a letter to State
                   Medicaid Directors about Medicaid payment implications for selected
                   adverse events. CMS explained that the intent of this letter was to offer
                   States an opportunity to tie Medicaid payment to performance through
                   denial of payment for selected adverse events. According to CMS, there
                   are seven pending State Plan Amendments to restrict payment for
                   selected adverse events, and State systems used to prevent or recoup
                   Medicaid payments could serve as a model for a national system.




 OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S   iv
Δ   T A B L E          O F           C O N T E N T S


         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 7
                   Twenty-six States had adverse event reporting systems. . . . . . . . . 7

                   Reporting systems varied across States . . . . . . . . . . . . . . . . . . . . . . 8

                   States reported having mechanisms to identify underreporting
                   and strategies to improve reporting . . . . . . . . . . . . . . . . . . . . . . . 12

                   States reported using data for accountability and learning . . . . . 14



         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                   Agency Comments and Office of Inspector General Response . . . 19



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                   A: Glossary of Selected Terms . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                   B: National Quality Forum List of Serious Reportable Events . . 22

                   C: Tax Relief and Health Care Act of 2006 . . . . . . . . . . . . . . . . . . 23

                   D: States With Adverse Event Reporting Systems . . . . . . . . . . . . 25

                   E: State-by-State Reporting Requirements for Hospital
                      Adverse Events . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

                   F: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Δ    I N T R O D U C T I O N



                      OBJECTIVE
                      To identify and describe State adverse event reporting systems and how
                      States use the reported information.


                      BACKGROUND
                      The term “adverse event” describes harm to a patient as a result of
                      medical care. An adverse event indicates that the care resulted in an
                      undesirable clinical outcome and that the clinical outcome was not
                      caused by an underlying disease. Adverse events include medical
                      errors, such as use of incompatible blood products. They may also
                      include more general substandard care that can result in harm, such as
                      infection because of contaminated equipment, incorrect diagnoses, and
                      lack of patient monitoring during treatment. Research, policies, and
                      action taken to reduce adverse events often focus on mistakes and
                      systemic problems with care. However, adverse events do not always
                      involve errors, negligence, or poor quality of care and may not always be
                      preventable.

                      A variety of terms, lists, and definitions are used to identify and address
                      harmful health care events. For a glossary of selected terms, see
                      Appendix A. The term “never event” is used to describe a specific list of
                      serious events that the National Quality Forum (NQF) determined
                      “should never occur in a health care setting” and are associated
                      primarily with patient death or serious disability.1 NQF currently uses
                      the term “serious reportable events” to describe this list. For the list of
                      NQF “Serious Reportable Events,” see Appendix B. Expanding beyond
                      the specific events defined by NQF, this and subsequent Office Inspector
                      General (OIG) reports use the broader and more common term “adverse
                      event” to provide for a more comprehensive examination of key issues.
                      Statutory Mandate and Office of Inspector General Response
                      The Tax Relief and Health Care Act of 2006 (the Act) requires that OIG
                      study events that cause harm to Medicare beneficiaries. The Act
                      specifically mandates that OIG study the incidence of “never events”
                      among Medicare beneficiaries, payment by Medicare or beneficiaries for
                      services furnished in connection with such events, and administrative


                         1 NQF is a public-private organization created to develop and implement a national
                      strategy for health care quality measurement and reporting. This list is available online at
                      http://www.qualityforum.org/about. Accessed on October 10, 2008.



    OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                                 1
I N T R O D        U C T      I O N


                    processes of the Centers for Medicare & Medicaid Services (CMS) to
                    identify events and deny or recoup payment. OIG is also to report to
                    Congress on the studies conducted, including recommendations for such
                    legislation and administrative action as OIG determines appropriate.
                    For relevant text of the Act, see Appendix C.

                    Following a review of Medicare policies and expenditures, as well as
                    consultation with CMS and the Agency for Healthcare Research and
                    Quality (AHRQ), we chose to focus much of our work on the hospital
                    setting. In 2006, 12.5 million Medicare beneficiaries were hospitalized,2
                    with inpatient hospital costs constituting the largest portion of
                    Medicare expenditures (32 percent in 2006).3 Also, many current efforts
                    by Federal Government agencies and private entities to research and
                    address adverse events target care provided in hospitals.

                    OIG is conducting a series of studies through 2009 to fulfill the
                    requirements in the Act and to inform decisionmakers regarding
                    adverse events. To facilitate OIG efforts to comply with the Act, we first
                    sought to identify key issues regarding adverse events in hospitals to
                    provide direction and context for our future work.4 A key issue
                    identified was hospital reporting of adverse events. This study focuses
                    on State efforts to operate adverse event reporting systems. Other OIG
                    studies focus on estimating the incidence of adverse events among
                    Medicare beneficiaries, Medicare beneficiaries receiving potentially
                    inappropriate drug pairs that may reflect medication errors, and
                    responses to adverse events in hospitals.
                    Adverse Event Reporting Systems
                    A State-level adverse event reporting system (hereinafter referred to as
                    a system) collects data regarding adverse events that have taken place
                    in hospitals and other health care settings. The Institute of Medicine
                    (IOM) report, “To Err is Human: Building a Safer Health Care System,”
                    outlines key issues associated with reporting and collecting data and a



                      2 CMS, “Statistics Book,” Table IV.1: Medicare/short-stay hospital utilization, 2008,

                    p. 43. Available online at
                    http://www.cms.hhs.gov/CapMarketUpdates/Downloads/2008CMSStats_xls.pdf. Accessed
                    on November 12, 2008.
                      3 Based on data contained in Congressional Budget Office (CBO) “Fact Sheet for CBO’s
                    March 2007 Baseline: Medicare,” March 7, 2007. Available online at
                    http://www.cbo.gov/budget/factsheets/2007b/medicare.pdf. Accessed on September 8, 2008.
                      4 “Adverse Events in Hospitals: Overview of Key Issues,” 2008, OEI-06-07-00470.




 OEI-06-07-00471    ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                              2
I N T R O D        U C T       I O N


                    national plan to address adverse events.5 As part of this plan, IOM
                    recommended the creation of a nationwide system that provides for the
                    collection of standardized data by State governments when adverse
                    events occur. IOM maintained that reporting has the potential to serve
                    two purposes: to hold individual hospitals accountable for performance
                    and to provide information that could lead to improved patient safety.

                    To date, no national adverse event system exists and there are no
                    Federal standards regarding State systems. Instead, States may opt to
                    require hospitals to report adverse events, identify and define which
                    events are reportable, and establish parameters surrounding the
                    specific information for hospitals to report.
                    As mentioned previously, NQF has identified a list of serious reportable
                    events. This list has six categories of events, five of which relate to the
                    provision of care: surgical, product or device, patient protection, care
                    management, and environmental. The sixth category involves criminal
                    events and is included by NQF because such events could indicate an
                    unsafe environment for patients. The criteria for inclusion on this list
                    require that events be: 6
                    •     of concern to the public, health care professionals, and providers;

                    •     clearly identifiable, measurable, and so feasible to include on a list;

                    •     such that the risk of occurence is significantly influenced by the
                          policies and procedures of a health care facility; and

                    •     unambiguous, usually preventable, and serious; and

                                 o    adverse; and/or

                                 o    indicative of a problem in a health care facility’s safety
                                      systems; and/or

                                 o    important for public credibility or accountability.

                    A number of Federal and nongovernmental entities receive adverse
                    event reports from hospitals and other health care entities. For
                    example, the Food and Drug Administration (FDA) receives information




                      5 L. T. Kohn, J. M. Corrigan, and M. S. Donaldson, eds., “To Err is Human: Building a
                    Safer Health System, A Report of the Committee on Quality of Health Care in America,”
                    Institute of Medicine, p. 102. Washington, DC, National Academy Press, 2000.
                        6 NQF, “Serious Reportable Events in Healthcare, 2006 Update,” 2007, pp. 4, D-4.




 OEI-06-07-00471    ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                              3
I N T R O D        U C T      I O N


                    about adverse events involving drugs, biologics, and medical devices.7
                    Additionally, hospitals participating in Medicare must report to CMS all
                    deaths associated with the use of seclusion or restraints as well as
                    develop and maintain systems for tracking adverse events.8 The Joint
                    Commission, which establishes standards and accredits hospitals,
                    encourages but does not require accredited hospitals to report certain
                    adverse events deemed sentinel events to the Joint Commission.9
                    Additionally, to address concerns about patient safety, the Patient
                    Safety and Quality Improvement Act of 2005 (the Patient Safety Act)
                    was enacted.10 The Patient Safety Act requires the Department of
                    Health and Human Services to establish a national network of Patient
                    Safety Organizations (PSO) to, among other tasks, accept voluntary
                    reports of adverse events from hospitals.11 In November 2008, AHRQ
                    designated the first 15 PSOs and is continuing to solicit applications for
                    additional PSOs.12 AHRQ has also developed common formats for use
                    by Patient Safety Organizations, which delineate definitions and data
                    elements that allow hospitals to collect and submit standardized
                    information regarding adverse events.13


                    METHODOLOGY
                    Scope
                    This report identifies and describes adverse event reporting systems in
                    all 50 States and the District of Columbia (hereinafter referred to as
                    States) as of January 2008.




                       7 21 CFR § 314.80(c), 21 CFR § 600.80(c), 21 CFR § 606.170, 21 CFR Part 803, 21 CFR
                    § 1271.350. FDA Safety Information and Adverse Event Reporting Program. Available
                    online at http://www.fda.gov/medwatch/index.html. Accessed on October 15, 2008.
                      8 42 CFR §§ 482.13(g) and 482.21(a)(2).
                      9 Sentinel events are defined by the Joint Commission as “unexpected occurrences
                    involving death or serious physical or psychological injury, or risk thereof.” The Joint
                    Commission, “Sentinel Event Policy and Procedures.” Available online at
                    http://www.jointcommission.org/SentinelEvents/PolicyandProcedures/. Accessed on
                    August 7, 2008.
                      10 The Patient Safety Act, P.L. No. 109-41.
                      11 Ibid, at § 923.
                      12 AHRQ, “Alphabetical Directory of Listed Patient Safety Organization.” Available
                    online at http://www.pso.ahrq.gov/listing/psolist.htm. Accessed on November 20, 2008.
                      13 73 Fed. Reg. 50974 (August 29, 2008).




 OEI-06-07-00471    ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                               4
I N T R O D        U C T      I O N


                    Identification of States With Reporting Systems
                    For purposes of this report, we considered a State to have an adverse
                    event reporting system if its system:

                    •   was authorized through State statute, rules, or Executive order;

                    •   had policies and procedures for reporting; and

                    •   was actively receiving reports from hospitals as of January 1, 2008.

                    To identify States with systems, we created a list from the following
                    sources: (1) AHRQ’s Patient Safety Incident Reporting Systems
                    metadatabase,14 (2) the National Academy of State Health Policy’s
                    Patient Safety Toolbox,15 and (3) information from State adverse event
                    reporting systems’ Web sites. We also called States to confirm the
                    information.

                    For States without known systems, we gathered information from State
                    Web sites as an entry point for locating departments and divisions
                    responsible for oversight of patient safety in hospitals. We then called
                    States to confirm that the State did not have a system.
                    Data Collection
                    We conducted three data collection activities: (1) a review of State
                    statutes and regulations, policy and procedural documents, and other
                    documents provided by States, such as annual reports that draw from
                    reported events; (2) structured telephone interviews with State staff
                    who were responsible for either the State adverse event reporting
                    system or State oversight of patient safety in hospitals; and
                    (3) collection of the number of adverse events from State annual reports,
                    spreadsheets submitted by State staff, and State Web sites.

                    Document Review. We requested and reviewed documentation provided
                    by States regarding their systems. We also collected and reviewed
                    documents from States’ Web sites. This information included State
                    statutes, regulations, policies and procedures, adverse event report
                    forms, annual reports, and patient safety alerts/bulletins.

                    Structured Interviews With Selected Staff. We conducted structured
                    interviews by telephone with staff from each State who were responsible


                      14 AHRQ Patient Safety Research Coordinating Center Portal. Available online at
                    https://mdis.s-3.com. Accessed on October 1, 2007.
                       15 National Academy of State Health Policy, “Patient Safety Toolbox.” Available online
                    at http://www.pstoolbox.org/. Accessed on February 8, 2007.



 OEI-06-07-00471    ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                                5
I N T R O D        U C T      I O N


                    for either the system or State oversight of patient safety in hospitals.
                    We developed and administered separate interview protocols for States
                    with systems and States without systems.

                    For each State with a system, we asked State staff questions about:

                    •   system administration, including entities responsible for operating
                        the system, State laws and regulations related to reporting, how
                        adverse events are defined and reported, and mechanisms to ensure
                        reporting;

                    •   information recorded in the system as an adverse event report, such
                        as information about causal analysis (hereinafter referred to as root
                        cause analysis), interventions, actions, strategies designed to reduce
                        the risk of occurrence (hereinafter referred to as risk reduction
                        strategies), and corrective action plans; and

                    •   how the State uses reported information.

                    We asked staff from each State without a system questions about any
                    State-sponsored actions to develop one.

                    Adverse Event Reports. We requested that States provide the aggregate
                    number of adverse events received from hospitals in 2006 by the type of
                    adverse event.16 States provided these data through spreadsheets,
                    published annual reports, and/or their Web sites.
                    Limitations
                    The information in this report reflects State efforts as reported by State
                    staff. We verified this information by reviewing supporting documents
                    that staff provided or we accessed through State Web sites. However,
                    we did not independently verify the extent to which States with systems
                    are using reported information in the manner described by State staff.

                    Data regarding the number of adverse events received by State systems
                    in 2006 are not standardized across States. Therefore, we could not
                    aggregate adverse event reports or identify trends or patterns based on
                    the number of reported adverse events across States.
                    Quality Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.

                      16 For some States with reporting systems, 2006 was the most recent full year for which
                    data were available at the time of our data request in February 2008.



 OEI-06-07-00471    ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                                6
Δ     F I N D I N G S



  As of January 2008, 26 States had hospital              Each of the 26 States’ systems met
adverse event reporting systems and another               the criteria that we used: they
       State had taken action to develop one              were authorized through State law,
                                                          had formal policies and procedures
                    for reporting, and were actively collecting data from hospitals. The
                    remaining 25 States did not have systems, although 1 State had passed
                    legislation authorizing a system and was developing policies and
                    procedures.17 Four of the twenty-six States with systems supplement
                    reports received from hospitals with reports from hospital staff and the
                    public.18 In most of these States, governmental agencies (usually the
                    Department of Health or another State department) received reports;
                    however, two States contracted with nongovernmental entities to collect
                    these data.
                    Many of the 26 States’ systems were relatively new and implemented
                    within the last 10 years. As of January 2008, 10 systems had been in
                    operation less than 3 years, 8 had been in operation 4–9 years, and
                    8 had been operating for 10 years or more. Eighteen States submitted
                    the number of adverse events reported by hospitals during 2006.19 For
                    this timeframe, the number of adverse events reported by hospitals in
                    these States ranged from 6 to 16,442 events.20 However, as we describe
                    on the next page, given States’ differences in the types of events and
                    criteria used for selection, it is not surprising that such a wide range of
                    reported events exists. See Appendix D for more information about
                    each State’s system and the number of events reported in 2006 by State.




                      17 Illinois Adverse Health Care Events Reporting Law of 2005, 410 Ill. Comp. Stat 522,
                    Article 10. Although the statute directed that the State’s system be “fully operational” by
                    January 1, 2008, the system was not actively collecting data from hospitals at the time of
                    our data collection and therefore did not meet our criteria for inclusion.
                      18 Hospital staff may submit adverse event reports directly to the State in Indiana,
                    Kansas, Pennsylvania, and South Dakota. Members of the public may submit adverse
                    event reports directly to the State in Kansas and South Dakota.
                      19 Twenty-two States reported collecting data in 2006. We received aggregate data for
                    the entire year from 18 of these 22 States. Of the remaining four States, one provided data
                    that combined totals from hospitals and ambulatory surgical centers; staff from one State
                    reported that they could not aggregate reported events; and the other two States began
                    collecting data in mid-2006 and, therefore, could not report complete data for the year.
                      20 This range does not include the number of near misses reported to Pennsylvania in
                    2006.



  OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                                  7
   F   I N D I N G        S



Reporting systems varied in terms of what events                  We examined information
                                                                  reported by State staff in the
        were reported, criteria used for selection,
                                                                  26 States with systems and
                and type of information reported
                                                                  identified differences in three
                         major areas: the list of reportable events; criteria for determining
                         whether events are reportable; and the extent to which adverse event
                         details, such as the specific location in which the event occurred or key
                         factors that contributed to the event, must also be submitted to the
                         State.
                         Twenty-three States established their own lists of reportable adverse events,
                         and three States used the National Quality Forum’s list of Serious
                         Reportable Events
                         Eight of the twenty-three States that established their own lists of
                         reportable events used the NQF list of Serious Reportable Events as a
                         starting point and modified it by adding events and/or by not using
                         some events on the NQF list.21 In general, States that established their
                         own lists of events have wide variation in the events that are included.
                         Some States identify very specific events. For example, Ohio requires
                         hospitals to report all incidents of postoperative respiratory failure.
                         Other States have broad specifications that could capture a range of
                         events. For example, Pennsylvania requires hospitals to report any
                         serious event, occurrence, or situation involving the clinical care of a
                         patient in a medical facility that results in an unanticipated injury and
                         requires additional medical care.22
                         State criteria for determining whether an event is reportable focus primarily
                         on the level of harm caused to the patient, although additional criteria affect
                         whether the same event would be reportable in other States
                         All States with systems ask hospitals to gauge whether harm was
                         caused to the patient and to assess the severity of this harm when
                         determining whether an event should be reported. We developed five
                         categories to describe how systems use severity of harm to determine



                            21 State staff expressed one of two general opinions about the use of the NQF list. Most
                         of those that used the list believed that it would be useful for sharing information about
                         events across States. Most of those that did not use the list reported that they considered
                         the list “vague” and open to interpretation. Two States (Maine and Massachusetts)
                         reported comparing their State-determined list with the NQF list and found that their
                         reporting criteria led to the identification of a much larger number of events.
                            22 Medical Care Availability and Reduction of Error Act, P.L. No. 154, No. 13, chapter 3,
                         §§ 302 and 313 (a).



       OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                                        8
F   I N D I N G        S




                      whether events are reportable. These categories include:
                      •     Events resulting in death. These events may include death
                            unrelated to the patient’s underlying condition, unanticipated death,
                            or death as an outcome of any reportable adverse event. All States
                            use this criterion for at least one reportable event. For example,
                            South Dakota requires hospitals to report any death resulting from
                            circumstances other than natural causes, such as accidents, abuse,
                            negligence, or suicide.23
                      •     Events resulting in long term harm or permanent disability. These
                            events may include serious disability or loss of bodily function.
                            Twenty-three States use this criterion for at least one reportable
                            adverse event. For example, Maine requires hospitals to report any
                            major permanent loss of function that is not present on admission.24
                      •     Events resulting in harm and likely to require additional medical
                            care. These events may include unanticipated injury or
                            life-threatening, serious, or unforeseen complications. Twenty-four
                            States use this criterion for at least one reportable adverse event.
                            For example, Connecticut requires hospitals to report any incident
                            in which a gas line designated for oxygen to be delivered to a patient
                            contains the wrong gas.25
                      •     Events not resulting in identifiable physical harm. These events
                            may not result in death or physical disability and may not require
                            additional medical care. They are reportable because they happened
                            and may reflect vulnerabilities in the hospital environment.
                            Twenty-three States use this criterion for at least one reportable
                            adverse event. For example, Tennessee requires hospitals to report
                            instances in which there is misappropriation of patient funds.26
                      •     Near misses. These events are occurrences that could have resulted
                            in an adverse event but the event was averted and the patient was
                            not harmed. Only one State, Pennsylvania, uses this criterion for


                          23 Administrative Rules of South Dakota, § 44:04:01:07.
                          24 Maine: Title 22, chapter 1684, §§ 8752.4(A)(2); 8753.
                        25 State of Connecticut Department of Public Health, “Legislative Report to the General
                      Assembly: Adverse Event Reporting,” October, 2007, p. 9. Available online at
                      http://www.ct.gov/dph/lib/dph/hisr/hcqsar/healthcare/pdf/adverseeventreportoct2007.pdf.
                      Accessed on March 20, 2008.
                          26 Tennessee Health Data Reporting Act of 2002 Code, § 68-11-211(d)(2)(xx).




    OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                                  9
F   I N D I N G        S


                            reportable adverse events, e.g., when medical staff narrowly avert
                            conducting wrong-site surgery. 27 28 Staff from this State explained
                            that by requiring hospitals to identify and report near misses, the
                            State has the opportunity to bring about changes to prevent an
                            event from reaching a patient. For example, Pennsylvania received
                            a near miss report about a patient who nearly died because of
                            confusion over the meaning of the patient’s color-coded wristband.
                            Some hospital staff believed that the patient’s wristband color
                            meant “do not resuscitate,” when it actually meant something else.
                            The incident prompted the State to issue an advisory on the risks
                            associated with using specific colors to convey clinical information.
                      Although harm forms the foundation for reporting criteria, 13 States
                      also ask hospitals to evaluate additional criteria, such as the length of
                      time the patient experienced a certain outcome (8 States), whether the
                      condition persisted at the date of discharge from the hospital (8 States),
                      and whether persons other than the patient were also affected by the
                      event (4 States). Hence, the severity of harm coupled with additional
                      criteria affects whether the same adverse event is reportable in
                      different States. To illustrate, if a medical device is used or functions
                      other than as intended, it is a reportable event in:

                      •     Georgia if the outcome is death of the patient;29
                      •     New York if the outcome is death or serious injury to the patient or
                            hospital personnel;30 and
                      •     New Jersey if the outcome is patient death, loss of a body part,
                            disability, or loss of bodily function lasting more than 7 days or
                            present at discharge.31




                          27 Pennsylvania Patient Safety Authority, “PA-PSRS Automated Data Interface XML

                      Specifications, Part 3,” Version 6.4, September 19, 2007, p. 12.
                          28 Staff from two other States indicated that although mandated by legislation to collect
                      data on near misses, they had not implemented this provision as of January 2008.
                          29 Georgia Hospital Rules, § 290-9-.07(2)(a)1(i).
                          30 State of New York Department of Health, “NYPORTS, Section 3: Includes and
                      Excludes List, Version 4,” 2005, p. 5.
                          31 New Jersey Department of Health and Senior Services, “Mandatory Patient Safety
                      Reporting Requirements for Licensed Health Care Facilities (Revised): Patient Safety
                      Initiative,” 2008, pp. 3–5. Available online at:
                      http://www.nj.gov/health/ps/documents/final_directions_march08.pdf. Accessed on
                      April 3, 2008.



    OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                                 10
F   I N D I N G        S


                      State requirements differ regarding what information hospitals must provide
                      in adverse event reports
                      Each of the 26 States’ systems had different requirements regarding the
                      information that must be included about the following: the event itself,
                      the patient involved in the event, the result of any root cause analyses,
                      and any corrective action plans and/or risk reduction strategies. See
                      Appendix E for a listing of information that should be submitted to each
                      State.

                      Information that describes the event. At a minimum, adverse event
                      reports in all 26 States with systems must identify the type of adverse
                      event and the hospital in which the event occurred. Twenty-four States
                      also require the hospital to submit additional information about the
                      adverse event itself, including the date the event occurred and a
                      summary description of the event. Twenty States also require the
                      hospital to report the location or service area in which the adverse event
                      occurred, such as an emergency department, operating room,
                      laboratory, or intensive care unit.

                      Information about the patient. Nineteen of the twenty-six States require
                      hospitals to submit information about the patient involved in the event.
                      These States all require the hospital to submit the patient’s date of
                      birth. Other information required includes the patient’s diagnosis
                      (16 States); the impact of the event on the patient (12 States); and
                      identifying information such as the patient medical record number
                      (5 States) and/or the patient billing number (2 States).

                      Results of a root cause analysis. Seventeen of the twenty-six States
                      require the hospital to submit documentation of the results of its root
                      cause analysis of the event.32 This documentation must include
                      information regarding factors that contributed to the event (16 States),
                      any identified cause for the event (12 States), and the names or titles of
                      the persons who conducted the root cause analysis (7 States).

                      Corrective action plans and/or risk reduction strategies. Twenty of the
                      twenty-six States require the hospital to submit a corrective action plan
                      or a risk reduction strategy that the hospital has determined will reduce
                      the risk of future occurrences of the event. Some of these States require
                      additional information, such as a timeline for implementation of the

                         32 Some of these States do not use the term “root cause analysis” to describe their causal
                      analyses, but the elements typically considered as part of root cause analysis were present
                      in State reporting forms for each of these States.



    OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                                 11
F   I N D I N G        S


                      strategies (11 States), measures of effectiveness (10 States), entities
                      responsible for implementation (10 States), and entities responsible for
                      monitoring the effectiveness of the risk reduction strategies (9 States).



      Most States with systems reported having               Staff from 15 of the 26 States
                                                             acknowledged that hospitals do
     mechanisms to identify underreporting and
                                                             not always submit reports when
                strategies to improve reporting
                                                             adverse events occur. However,
                      staff from nearly all of these States were reluctant to estimate the
                      extent to which adverse events go unreported, typically expressing that
                      they could not know how many events actually occur. Nonetheless, staff
                      described methods to identify specific instances of underreporting and
                      explained strategies that their States use to encourage hospitals to
                      submit reports.
                      States identify instances of underreporting by comparing hospitals and by
                      matching reports against other data sources
                      Staff from 11 of the 26 States with systems explained that their State
                      analyzes reported data to identify specific instances of underreporting.
                      For example, Pennsylvania identified reporting disparities among
                      hospitals by analyzing the number of reports per hospital for every
                      1,000 patient-days.33 It found a wide range of reports across hospitals,
                      with the top 25 percent of reporting hospitals submitting 36 to
                      302 adverse event reports per 1,000 patient-days, and the bottom
                      25 percent of hospitals reporting 0 to 8 events per 1,000 patient-days.
                      State staff theorized that this range could be explained by hospitals’
                      differing interpretations of events; systems for identifying events;
                      cultures regarding patient safety; and/or patient case mix, which can
                      affect the rates of serious events.

                      Staff from 16 of the 26 States reported identifying specific instances of
                      hospital underreporting by comparing hospital reports against
                      complaints, referrals, and administrative databases. For example, staff
                      from one State explained that underreported events are discovered
                      through referrals received from its Medicaid contractors. In one such
                      case, the contractor discovered potential adverse events during a
                      routine review of the utilization of Medicaid services. Similarly, staff

                        33 Pennsylvania Patient Safety Authority, “2007 Annual Report,” April 29, 2008, p. 32.
                      Available online at http://www.psa.state.pa.us/psa/lib/psa/annual_reports/annual_
                      report_2007.pdf. Accessed on May 7, 2008.



    OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                                 12
F   I N D I N G        S


                      from another State reported receiving referrals from State certification
                      surveyors who discover events during onsite reviews. Other States
                      reported actively identifying underreported events by reviewing patient
                      death records (two States), administrative databases that contain
                      inpatient or emergency room data (two States), and Medicaid claims
                      data (one State).

                      Finally, staff from three States also reported uncovering events by
                      conducting onsite audits of hospitals that rarely file reports. State staff
                      reported that, during these visits, they review committee meeting notes,
                      e.g., notes of the operating room committee or the coding committee;
                      examine accident report data; and assess the hospital’s processes
                      related to patient safety and adverse events, all of which may reveal
                      unreported events.
                      Strategies to improve reporting include legal protections to prevent
                      improper disclosure, monetary penalties for failing to report, and provision
                      of useful information to hospitals about reported events
                      Twenty-five of the twenty-six States with systems reported that
                      information submitted to the system is kept confidential. State staff
                      highlighted the importance of maintaining confidentiality by explaining
                      that hospitals would be hesitant to send in a report or provide specific
                      details about the adverse event if that information were made public.
                      One unintended consequence of publicizing hospital-specific information
                      is that high numbers of reports by a hospital can be misinterpreted as
                      an indicator of poor quality. As staff explained, hospitals that
                      frequently submit reports may be more vigilant about identifying and
                      reporting adverse events and that the number of reported events should
                      not be viewed as an indicator of quality.
                      The extent to which information is kept confidential varies among
                      States. For example, one State posts public reports on its Web site;
                      reports include the name of the hospital, the date of the adverse event,
                      general information about the event, and the hospital’s subsequent
                      actions. The State does not, however, reveal identifying information
                      about patients or clinicians. In contrast, staff from another State
                      explained that reporting is completely confidential and that it destroys
                      all reports after it takes appropriate action.

                      Staff from four States reported that the State may impose monetary
                      penalties on hospitals that fail to report adverse events. For example, a
                      hospital’s failure to report adverse events within the timeframes
                      specified in California regulations could result in an administrative

    OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                         13
 F   I N D I N G        S


                       penalty of $100 day for each day that the adverse event goes
                       unreported.34 However, staff from these four States indicated limited
                       use of these penalties for hospitals’ failure to report adverse events.

                       Finally, staff from 20 of the 26 States conveyed that using information
                       from adverse event reports to assist hospitals can provide incentives for
                       hospitals to submit reports. For example, State staff explained that
                       generating early warning alerts about problems discovered from
                       adverse event reports and making adverse event data available for use
                       in hospital training can benefit hospitals and cause them to be more
                       frequent and thorough reporters.



Twenty-three States reported using data to hold               State staff whom we interviewed
                                                              identified two major purposes for
  individual hospitals accountable; 18 reported
                                                              their adverse event reporting
    using data to promote learning and prevent
                                                              systems: to hold individual
                                adverse events                hospitals accountable for their
                       patient care performance and to disseminate information more broadly
                       with the goals of allowing hospitals to learn from others’ experiences
                       and preventing adverse events.
                       To hold individual hospitals accountable, States reported conducting
                       administrative reviews of data contained in reports
                       Staff from 23 of the 26 States with systems explained that all adverse
                       event reports resulted in desk audits (21 States), onsite audits
                       (2 States), and/or State-led investigations of hospitals’ handling of
                       reported events. In the remaining three States, officials we spoke with
                       did not report using adverse event reports to deal with hospitals
                       individually.

                       According to staff, these States conduct desk audits of reports to ensure
                       that the hospital provided complete information for all required fields.
                       The desk audit typically involves reviewing supplemental information,
                       such as the hospital’s root cause analysis and corrective action plan.
                       Based on the quality of the report and supplemental information, the
                       State may contact the hospital directly by telephone to gather more
                       information or provide instructions on completing the reporting form,
                       conducting a root cause analysis, or designing risk reduction strategies.
                       If the desk audit or follow-up calls reveal that the hospital did not


                         34 California Health and Safety Code, § 1280.4.




     OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                          14
F   I N D I N G        S


                      handle the event appropriately, staff from 12 of the 21 States reported
                      following up with onsite audits, although staff explained that resources
                      limited this activity. According to staff from these States, onsite visits
                      typically include a review of relevant records, which may uncover
                      additional adverse events that the hospital failed to report.

                      Staff from four States also reported using adverse event reports in
                      licensing decisions for hospitals. They explained that known adverse
                      events are one of many factors used to decide whether to revoke a
                      hospital’s license, and that loss of licensure based on a single event has
                      not happened. For example, staff from one of these States explained
                      that revocation could occur only after the hospital conducted an
                      inadequate investigation of an event that was deemed “serious,” did not
                      develop an appropriate corrective action plan, failed to correct
                      State-cited deficiencies, and was in the process of losing or had already
                      lost its accreditation status. As of January 2008, staff reported that a
                      single adverse event report had never led to the loss of licensure for a
                      hospital operating in this State.
                      With the goal of preventing adverse events and promoting learning, States
                      generate reports, conduct training, produce patient safety bulletins and
                      alerts, and post details about specific events on State Web sites
                      Staff from 18 of the 26 States with systems explained that they also use
                      reports to communicate with hospitals about best practices and
                      Statewide incidence of adverse events, to provide early warnings about
                      specific patient safety issues, and to provide details about specific
                      events. Three of the remaining eight States had systems that had been
                      in operation for about 1 year at the time of data collection in early 2008,
                      and staff said they were still developing hospital communication
                      mechanisms. The other five States did not report using adverse event
                      reports to provide information to hospitals for the purpose of promoting
                      learning and preventing adverse events. Generally, States used four
                      methods to communicate with hospitals: annual or semiannual reports,
                      State-led patient safety training or other initiatives, patient safety
                      bulletins/alerts, and State Web sites.

                      Annual or semiannual reports. Eleven of the twenty-six States draw from
                      adverse event reports to issue documents that include information on
                      the number of adverse events reported, the number of adverse events by
                      category, and information to help readers interpret the data. These
                      States typically release such reports to hospitals on an annual or
                      semiannual basis. They also make the reports public by posting them
                      on the State Web site.
    OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                         15
F   I N D I N G        S


                      Annual reports in 10 of these 11 States communicate additional
                      information regarding trends in reporting over time, findings of root
                      cause analyses, or prevention strategies undertaken by the State or
                      hospitals. For example, Minnesota’s “Adverse Health Events in
                      Minnesota” report published in January 2008 included the number of
                      events reported within a year by category, e.g., “wrong site surgery,” a
                      listing of root cause analysis results by event category, and prevention
                      strategies for both hospitals and patients.35
                      State-led patient safety trainings or other initiatives. Twelve of the
                      twenty-six States draw from adverse event reports to conduct patient
                      safety training or initiatives. State-led training is typically focused on
                      one specific patient-safety issue. For example, citing high numbers of
                      adverse event reports on patient falls, New Jersey conducted a
                      workshop in 2006 that led to the development of fall reduction programs
                      specific to each participating hospital’s needs.36 Such training can also
                      serve as a forum to allow hospitals to share best practices to improve
                      patient safety. State-led patient safety initiatives also focus on
                      particular patient safety issues to generate broader policy guidance.
                      For example, in response to high numbers of surgical errors, New York
                      convened a panel to develop preoperative surgery protocols to prevent
                      wrong site surgery, wrong procedures, and procedures on the wrong
                      patient. The panel of clinical experts reviewed policies and procedures
                      from a variety of sources and released final protocols in 2001 (which
                      were cited by the Joint Commission as a helpful reference for other
                      States).37 38


                        35 Minnesota Department of Health, “Adverse Events in Minnesota,” January 2008.
                      Available online at http://www.health.state.mn.us/patientsafety/ae/aereport0108.pdf.
                      Accessed on June 20, 2008.
                        36 New Jersey Department of Health and Senior Services, “Falls Collaborative,” Patient
                      Safety Reporting Initiative, February 2006: Issue 2, p. 1. Available online at
                      http://www.state.nj.us/health/ps/documents/feb2006_newsletter.pdf. Accessed on
                      June 20, 2008.
                        37 Joint Commission, “Sentinel Event Alert: A Follow-up Review of Wrong Site Surgery,”
                      Issue 24, December 5, 2001. Available online at
                      http://www.jointcommission.org/JointCommission/Templates/GeneralInformation.aspx?NR
                      MODE=Published&NRNODEGUID=%7bA4210FD1-1836-4D34-A068-
                      76F7FBCBA014%7d&NRORIGINALURL=%2fSentinelEvents%2fSentinelEventAlert%2fse
                      a_24%2ehtm&NRCACHEHINT=Guest#2. Accessed on June 20, 2008.
                        38 New York State Department of Health, “New York State Health Department Releases
                      Pre-Operative Protocols to Enhance Safe Surgical Care,” February 8, 2001. Available
                      online at http://www.health.state.ny.us/press/releases/2001/preop.htm. Accessed on
                      June 20, 2008.



    OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                             16
F   I N D I N G        S


                      Patient safety bulletins and alerts. Nine of the twenty-six States draw
                      from reports to produce advisory bulletins or patient safety alerts,
                      which often focus on one patient safety issue and provide clinical
                      direction or describe prevention strategies used by other hospitals. For
                      example, a 2007 issue of Maryland’s “Clinical Alert” examines adverse
                      events caused primarily by equipment vendors being present during
                      surgery, a scenario that had been reported by hospitals.39
                      Pennsylvania also uses adverse event reports to produce quarterly
                      bulletins that examine a range of patient safety issues and typically
                      include clinical reminders, best practice anecdotes, policy alerts, and
                      reporting guidance.40
                      Web site postings. After following up on reported events through desk
                      or onsite audits or investigations, three States post findings on their
                      State Web site that contain details about both the reported event and
                      the affected patient. One State posts summary information for every
                      reported event, including the name of the hospital where the event took
                      place, the date and description of the event, and several details about
                      the affected patient. These details include the patient’s gender, age
                      range, medical background information, and the reason for admission.
                      For example, one posting reported that a female in her 30s with a
                      history of traumatic brain injury, who had been admitted for abdominal
                      pain, had eloped from the hospital. Similarly, two other States post the
                      results of some investigations spurred by reported events that contain
                      patient specific details. However, these States do not post findings for
                      every reported event, only those that are likely to cause serious injury
                      or death to the patient. Each of the three States’ Web site postings also
                      provide information about the results of investigations, including the
                      results of root cause analyses, corrective actions taken by the hospital,
                      and indications of whether these actions were found to be appropriate
                      by the State.

                      The public disclosure of adverse event reports and resulting
                      investigations on State Web sites could be used to prevent adverse
                      events and promote learning. However, in some of these postings, we

                        39 Maryland Department of Health and Mental Hygiene, “Clinical Alert: An
                      Unnecessary Distraction, Vendors in Operating Room,” Vol. 4, No. 3, Winter 2007.
                      Available online at http://dhmh.maryland.gov/ohcq/download/alerts/alert-v4-n3-
                      winter2007.pdf. Accessed on May 23, 2008.
                        40 Pennsylvania Patient Safety Advisory. Available online at
                      http://www.psa.state.pa.us/psa/cwp/view.asp?a=1293&q=445966&psaNav=|. Accessed on
                      June 9, 2008.



    OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                         17
F   I N D I N G        S


                      noticed a level of detail that could be used to identify the patient. The
                      possibility of compromised patient privacy could be heightened under
                      certain circumstances, such as when an adverse event involves a patient
                      who lives in a smaller community and when media reports about an
                      event contain additional information that can be matched with
                      information contained in a Web site posting.




    OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                         18
I N T R O D        U C T     I O N
Δ    C O N C L U S I O N

                    In the absence of both a national comprehensive mandatory system and
                    Federal guidelines regarding State reporting systems, about half of the
                    States have implemented hospital adverse event reporting systems.
                    These systems appear to be disparate, with each tracking different
                    events; employing different reporting criteria; and requiring differing
                    accompanying information, such as the cause of the event and corrective
                    actions to prevent recurrence. Not surprisingly, a wide range of
                    reported events exist across States. The differences we found make
                    State adverse event reporting systems data unsuitable for use in the
                    aggregate to identify national incidence and trends. To the extent that
                    States adopt common reporting formats, such as those developed by
                    AHRQ for use by Patient Safety Organizations, such differences could
                    diminish over time.

                    Despite the distinct attributes of each State system, we noted that most
                    States reported using data in similar ways to improve patient safety.
                    For instance, staff from all but three States reported using data to
                    assess individual hospitals’ response to adverse events, and to work
                    with hospitals when their responses are found to be inadequate. We
                    also found similarities in States’ use of reported information to promote
                    learning, with 18 States using information to communicate with
                    hospitals about Statewide incidence, best practices, and/or to provide
                    early warnings about specific patient safety issues. States may find
                    that opportunities exist to expand their use of reported data by
                    employing the communication methods used by other States.

                    Finally, although the 26 States require hospitals to report adverse
                    events when they occur, staff from most of these States agreed that
                    events are underreported. Although States have identified several
                    strategies for improvement, they continue to find instances of hospitals’
                    failures to submit reports by comparing hospital reports against
                    administrative data, through the results of onsite audits, or through
                    complaints and referrals. Beyond measures currently being used,
                    States may find it prudent to consider other means to more effectively
                    ensure reporting by hospitals.


                    AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                    RESPONSE
                    We received comments on a draft of this report from AHRQ and CMS.
                    AHRQ and CMS provided positive comments on the draft report.



 OEI-06-07-00471    ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                       19
C O   N C L        U S I O    N


                     AHRQ called for greater precision when discussing the differences
                     between NQF’s list of Serious Reportable Events (formerly referred to
                     as “never events”) and CMS’s payment policies for hospital-acquired
                     conditions. Although this report does not examine CMS’s payment
                     policies, we will ensure that other OIG reports on this topic make these
                     distinctions clear.

                     CMS expressed its belief that the report should more clearly describe
                     the impediments facing the Federal Government and CMS in managing
                     data identifying adverse events given the existing fragmented systems.
                     According to CMS, data from State systems are not useful in
                     understanding national issues and trends because of the variability in
                     States’ identification of adverse events. We modified the report’s
                     conclusion to underscore that data from State adverse event reporting
                     systems are unsuitable for national level analyses.

                     Because of the variability among State-based systems, CMS indicated
                     that it would be helpful to identify potential solutions, such as
                     amending the Patient Safety Act to make reporting of well-defined
                     adverse events mandatory. CMS also indicated that it would be helpful
                     to identify other partners in reporting system efforts, such as AHRQ
                     and IOM. In planning future work in this area, we will consider the
                     issues addressed in CMS’s comments.

                     Finally, CMS stated that it had recently issued a letter to State
                     Medicaid Directors, which addressed Medicaid payment implications for
                     selected adverse events. CMS explained that the intent of this letter
                     was to offer States an opportunity to tie Medicaid payment to
                     performance through denial of payment for selected adverse events.
                     According to CMS, there are seven pending State Plan Amendments to
                     restrict payment for selected adverse events, and that State systems
                     used to prevent or recoup Medicaid payments could serve as a model for
                     a national system. CMS noted that hospitals already collect data about
                     adverse events and that requiring them to send notice of such reports to
                     State and/or Federal Governments could give regulatory authorities
                     valuable information at minimal additional expense to hospitals.

                     For the full text of AHRQ and CMS comments, see Appendix F.




 OEI-06-07-00471     ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                        20
Δ   A P P E N D I X ~ A


                  GLOSSARY OF SELECTED TERMS41

                  Adverse event—Harm (injury or illness) caused by medical care.
                  Identifying adverse events indicates that the care resulted in an
                  undesirable clinical outcome and that the clinical outcome was not
                  caused by an underlying disease, but does not imply an error,
                  negligence, or poor quality care.
                  Corrective action plan—Policy and procedural actions that hospitals
                  prepare to respond to an adverse event and to prevent recurrence.
                  Medical error—The failure of a planned action to be completed as
                  intended or the use of a wrong plan to achieve an aim.
                  Near miss—An event or a situation that did not produce patient harm,
                  but only because of intervening factors, such as patient health or timely
                  intervention. Also known as a “close call.”
                  Never event—An event or a situation that should never occur in a health
                  care setting. The National Quality Forum initially used the term “never
                  events” to describe its list of serious events but began in 2005 to refer to
                  the list as “serious reportable events.”
                  Patient safety—Freedom from accidental or preventable injuries caused
                  by medical care.
                  Risk reduction strategies—Interventions, actions, and strategies
                  designed to reduce the risk of recurrence of the event. Typically part of
                  a corrective action plan.
                  Root cause analysis—A focused review of systems and processes to
                  identify the basic or contributing factors that cause adverse events.




                    41 Definitions derived from a variety of sources including E. Flink, C. L. Chevalier, A.
                  Ruperto, P. Dameron, F. J. Heigel, R. Leslie, J. Mannion, and R. J. Panzer, “Lessons
                  Learned from the Evolution of Mandatory Adverse Event Reporting Systems,” Advances in
                  Patient Safety, 2005; L. T. Kohn, J. M. Corrigan, and M. S. Donaldson, eds., “To Err is
                  Human: Building a Safer Health System,” A Report of the Committee on Quality of Health
                  Care in America, Institute of Medicine, Washington, DC, National Academy Press, 1999;
                  R. M. Wachter, “Understanding Patient Safety,” McGraw–Hill, 2008; and the glossary of the
                  Agency for Healthcare Research and Quality Patient Safety Network available online at
                  http://www.psnet.ahrq.gov/glossary.aspx. Accessed on October 10, 2008.



OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                               21
     Δ            A P P E N D I X ~ B

NATIONAL QUALITY FORUM LIST OF SERIOUS REPORTABLE EVENTS
The National Quality Forum (NQF) List of Serious Reportable Events is grouped into six
categories: surgical, product or device, patient protection, care management, environmental,
and criminal events. “Serious” describes an event resulting in death, loss of a body part,
disability, or loss of bodily function lasting more than seven days or still present at time of
discharge.42


Table 1: The National Quality Forum List of Serious Reportable Events
Surgical Events
 A.    Surgery performed on the wrong body part
 B.    Surgery performed on the wrong patient
 C.    Wrong surgical procedure performed on a patient
 D.    Unintended retention of foreign object in a patient after surgery or procedure
 E.    Intraoperative or immediately postoperative death
Product or Device Events
 A.    Patient death or serious disability associated with the use of contaminated drugs, devices, or biologics provided by the health care facility
 B.    Patient death or serious disability associated with use or function of a device in patient care in which the device is used or functions other than as
        intended
 C.    Patient death or serious disability associated with intravascular air embolism that occurs while being cared for in a health care facility
Patient Protection Events
 A.    Infant discharged to the wrong person
 B.    Patient death or serious disability associated with patient elopement
 C.    Patient suicide, or attempted suicide, resulting in serious disability while being cared for in a health care facility
Care Management Events
 A.    Patient death or serious disability associated with a medication error
 B.    Patient death or serious disability associated with a hemolytic reaction due to administration of ABO/HLA-incompatible blood or blood products
 C.    Maternal death or serious disability associated with labor or delivery in a low-risk pregnancy while being cared for in a health care facility
 D.    Patient death or serious disability associated with hypoglycemia, the onset of which occurs while patient is cared for in a health care facility
 E.    Death or serious disability associated with failure to identify and treat hyperbilirubinemia in neonates
 F.    Stage III or IV pressure ulcers acquired after admission to a health care facility
 G.    Patient death or serious disability due to spinal manipulative therapy
 H.    Artificial insemination with the wrong donor sperm or wrong egg
Environmental Events
 A.    Patient death or serious disability associated with an electric shock while being cared for in a health care facility
 B.    Any incident in which a line designated for oxygen or other gas to be delivered to a patient contains the wrong gas or is contaminated by toxic
        substances
 C.    Patient death or serious disability associated with a burn incurred from any source while being cared for in a health care facility
 D.    Patient death or serious disability associated with fall while cared for in a health care facility
 E.    Patient death or serious disability associated with the use of restraints or bedrails while being cared for in a health care facility
Criminal Events
 A.    Care provided by someone impersonating a health care provider
 B.    Abduction of a patient of any age
 C.    Sexual assault on a patient within or on the grounds of a health care facility
 D.    Death or significant injury resulting from a physical assault that occurs within or on the grounds of the facility




                                        42 NQF, “Serious Reportable Events in Healthcare, 2006 Update,” 2007, pp. vi and 6.




         OEI-06-07-00471             ADVERSE EVENTS    IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                                                             22
Δ   A P P E N D I X ~ C


                  TAX RELIEF AND HEALTH CARE ACT OF 2006
                  P. L. No. 109-432

                  DIVISION B – MEDICARE AND OTHER HEALTH PROVISIONS
                  TITLE II—MEDICARE BENEFICIARY PROTECTIONS
                  SEC 203 OIG STUDY OF NEVER EVENTS

                  (a) Study.—

                  (1) In general.—The Inspector General in the Department of Health and
                  Human Services shall conduct a study on—

                  (A) incidences of never events for Medicare beneficiaries, including
                  types of such events and payments by any party for such events;

                  (B) the extent to which the Medicare program paid, denied payment, or
                  recouped payment for services furnished in connection with such events
                  and the extent to which beneficiaries paid for such services; and

                  (C) the administrative processes of the Centers for Medicare & Medicaid
                  Services to detect such events and to deny or recoup payments for
                  services furnished in connection with such an event.

                  (2) Conduct of study.—In conducting the study under paragraph (1), the
                  Inspector General—

                  (A) shall audit a representative sample of claims and medical records of
                  Medicare beneficiaries to identify never events and any payment (or
                  recouping of payment) for services furnished in connection with such
                  events;

                  (B) may request access to such claims and records from any Medicare
                  contractor; and

                  (C) shall not release individually identifiable information or facility-
                  specific information.

                  (b) Report.—Not later than 2 years after the date of the enactment of
                  this Act, the Inspector General shall submit a report to Congress on the
                  study conducted under this section. Such report shall include
                  recommendations for such legislation and administrative action, such as
                  a noncoverage policy or denial of payments, as the Inspector General
                  determines appropriate, including—




OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                     23
A   P   P E N D       I X     ~         C


                      (1) recommendations on processes to identify never events and to deny
                      or recoup payments for services furnished in connection with such
                      events; and

                      (2) a recommendation on a potential process (or processes) for public
                      disclosure of never events which—

                      (A) will ensure protection of patient privacy; and

                      (B) will permit the use of the disclosed information for a root cause
                      analysis to inform the public and the medical community about safety
                      issues involved.

                      (c) Funding.— Out of any funds in the Treasury not otherwise
                      appropriated, there are appropriated to the Inspector General of the
                      Department of Health and Human Services $3,000,000 to carry out this
                      section, to be available until January 1, 2010.

                      (d) Never Events Defined.—For purposes of this section, the term “never
                      event” means an event that is listed and endorsed as a serious
                      reportable event by the National Quality Forum as of
                      November 16, 2006.




    OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                         24
    A  Δ
       P P
                   AE PN PD E
                            I X
                               N D~ I XA ~ D


STATES WITH ADVERSE EVENT REPORTING SYSTEMS
Table 2: Twenty-Six Reporting Systems and Number of Adverse Events Reported in 2006 by State
                            Year                                                                                                            Number of
                           System         Reportable                                                                                    Adverse Events
State                      Began          Event List                 Agency Receiving Reports                                          Reported in 2006
California                    2007        Modified NQF*              Department of Public Health, Office of Licensing and                            N/A
                                                                     Certification
Colorado                      1988        State determined           Department of Public Health and Environment, Health Facilities                  391
                                                                     and Emergency Medical Services Division
Connecticut                   2002        Modified NQF               Department of Public Health                                                     240
District of Columbia         2007         Modified NQF              Health Regulation and Licensing Administration                                   N/A
Florida                       1998        State determined           Agency for Healthcare Administration, Florida Center for Policy                 716
                                                                     Analysis
Georgia                      2003         State determined           Department of Human Resources, Office of Regulatory Services                    136
Indiana                       2006        NQF                        Department of Health                                                             79
Kansas                        1988        State determined           Department of Health and Environment                                             22
Maine                         2004        State determined           Department of Health and Human Services, Division of                             24
                                                                     Licensing and Regulatory Services
Maryland                      2004        State determined           Department of Health and Mental Hygiene, Office of Health                       174
                                                                     Care Quality
Massachusetts                 1980        State determined           Department of Public Health, Division of Health Care Quality                    782
Minnesota                     2003        NQF                        Department of Health                                                            140
Nevada                        2005        State determined           State Health Division, Bureau of Health Planning and Statistics                 188
New Jersey                   2005         Modified NQF               Department of Health and Senior Services                                        450
New York                     1985         State determined           Department of Health, Office of Health Systems Management                   16,442
Ohio                          2007        State determined           Department of Health, Office of Health Systems Management                       N/A
Oregon                        2006        Modified NQF               Patient Safety Commission                                                      N/A a
Pennsylvania                  2004        State determined           Patient Safety Authority                                                    6,232 b
Rhode Island                  1994        State determined           Department of Health, Division of Environmental and Health                     271
                                                                     Services Regulation, Office of Facilities Regulation
South Carolina               1976         State determined           Department of Health and Environmental Control                                  N/A
South Dakota                 1987         State determined           Department of Health                                                              6
Tennessee                     2000        State determined           Department of Health, Division of Healthcare Facilities                        3,585
Utah                          2001        Modified NQF               Department of Health                                                            N/A
Vermont                       2007        NQF                        Department of Health                                                            N/A
Washington                    2006        Modified NQF               Department of Health                                                           N/Aa
Wyoming                       2005        Modified NQF               Department of Health, Preventive Health and Safety Division                      13
Source: Office of Inspector General analysis of States’ legislation, statutes and regulations, forms, and 26 interviews, 2008.
* NQF is the National Quality Forum List of Serious Reportable Events.
a = States began collecting data in mid-2006 and, therefore, could not report complete data for the year.
b = This range does not include the number of near misses reported to Pennsylvania in 2006.
N/A = Not available; States did not provide the number of adverse event reports for 2006.




          OEI-06-07-00471              ADVERSE EVENTS       IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                                                               25
Δ        A P P E N D I X ~ E

STATE-BY-STATE REPORTING REQUIREMENTS FOR HOSPITAL ADVERSE EVENTS
Table 3: Selected Information Submitted by Hospitals to 26 States’ Adverse Event Reporting Systems
                                                                                                                                                                                                                                                                                            Root Cause                                                            Corrective Action Plan and
                                      Adverse Event Report Information                                                                                                                     Patient Information                                                                               Analysis                                                             Risk Reduction Strategies




                                                                                                                                                                                                                                                                                                                                                                                                                                  Entities Responsible To
                                                                                                                                                                                                                                                  Patient Billing Number




                                                                                                                                                                                                                                                                                                                                                                                                                                  Monitor Effectiveness
                                                                                                                                          Summary Description




                                                                                                                                                                                                                                                                           Team (Name or Title)
                                                                                                                                                                                                                                                                           Root Cause Analysis




                                                                                                                                                                                                                                                                                                                                                             Entities Responsible
                                                                                                                                                                                                                                                                                                                     Contributing Factors
                                                                                                                   Detailed Description




                                                                                                                                                                                      Patient Age or Date
                                                                                                                                                                Impact of the Event
                                                   Location or Service




                                                                                                                                                                                                                                                                                                                                                             for Implementation
                                                                                               Date of Discovery




                                                                                                                                                                                                            Patient Diagnosis


                                                                                                                                                                                                                                Record Number




                                                                                                                                                                                                                                                                                                  Identified Cause




                                                                                                                                                                                                                                                                                                                                                                                    Implementation
                                                   Area Within the




                                                                                                                                                                                                                                Patient Medical




                                                                                                                                                                                                                                                                                                                                            Risk Reduction
                                   Type of Event




                                                                                                                                                                on the Patient
                                                                         Date of Event




                                                                                                                                                                                                                                                                                                                                                                                                     Effectiveness
                                                                                                                                                                                                                                                                                                                                                                                    Timeline for




                                                                                                                                                                                                                                                                                                                                                                                                                     Monitoring
                                                                                                                                                                                                                                                                                                                                            Strategies




                                                                                                                                                                                                                                                                                                                                                                                                     Measures


                                                                                                                                                                                                                                                                                                                                                                                                                     Schedule
                                                   Hospital
                       Hospital




                                                                                                                                                                                      of Birth
State
California               y            y                   y                 y                                           y                                                                    y
Colorado                 y            y                   y                 y                                                                 y                                                                                                                                                                                                  y
Connecticut              y            y                   y                 y                      y                    y                                                                    y                  y                                      y                                                                                         y                  y                    y               y                                y
District of Columbia     y            y                   y                 y                      y                    y                     y                        y                     y                  y                                                                                                                                y                  y                    y                                                y
Florida                  y            y                   y                 y                                           y                                              y                     y                  y                    y                                                                y                   y                      y                                                       y
Georgia                  y            y                                     y                      y                                          y                                              y                  y                    y                                                                                                           y
Indiana                  y            y
Kansas                   y            y                   y                 y                                                                 y                                                                                                                                                                                                  y
Maine                    y            y                   y                 y                      y                    y                                                                    y                  y                                                                                                         y                      y                  y                    y               y              y                 y
Maryland                 y            y                   y                 y                                                                 y                                              y                  y                                                                 y                   y                   y                      y                  y                    y               y              y                 y
Massachusetts            y            y                   y                 y                                           y                     y                        y                     y                  y                                                                 y                   y                   y                      y
Minnesota                y            y                   y                 y                      y                    y                                              y                     y                  y                                                                                     y                   y                      y                  y                    y               y
New Jersey               y            y                   y                 y                      y                                          y                        y                     y                  y                    y                 y                                              y                   y                      y                  y                    y               y              y                 y
Nevada                   y            y                   y                 y                                                                 y                        y                     y                                                                                                                            y                      y
New York                 y            y                   y                 y                                           y                     y                                              y                  y                    y                                            y                   y                   y                      y                  y                    y               y                                y
Ohio                     y            y
Oregon                   y            y                   y                 y                      y                    y                     y                        y                     y                  y                                                                                                         y                      y                                       y
Pennsylvania             y            y                   y                 y                                           y                                              y                     y                                                                                                                            y                      y
Rhode Island             y            y                                     y                                                                 y                        y                                        y                    y                                                                y                   y                      y
South Carolina           y            y                   y                 y                                                                 y                                              y                                                                                                        y
South Dakota             y            y                   y                 y                                           y                     y                        y                     y                  y                                                                 y                   y                   y
Tennessee                y            y                                     y                                                                 y                                              y                  y                                                                 y                   y                   y                      y                  y                    y               y                                y
Utah                     y            y                   y                 y                      y                                          y                        y                     y                  y                                                                                                         y                      y
Vermont                  y            y                   y                 y                      y                                          y                                              y                  y                                                                 y                   y                   y                      y                  y                    y               y                                y
Washington               y            y                   y                 y                      y                                          y                                                                                                                                   y                   y                   y                      y                  y                    y               y              y                 y
Wyoming                  y            y                                     y                                                                 y                        y
   Total States        26          26                    20              24                    10                  11                     18                         12                   19                16                       5                 2                          7               12                 16                        20                 10                   11               10              4                 9
Source: Office of Inspector General analysis of States’ legislation, forms, guidance documents, and 26 interviews, 2008.

    OEI-06-07-00471               ADVERSE EVENTS                           IN            H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                                                                                                                                                                                                                                                                                                                                                                            26
Δ      A P P E N D I X                       ~            F

AGENCY COMMENTS




   OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                        27
A   P   P E N D       I X     ~         F



         Agency comments (continued)




    OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                         28
A   P   P E N D       I X     ~         F



         Agency comments (continued)




    OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                         29
Δ   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Kevin K. Golladay,
                  Regional Inspector General for Evaluation and Inspections in the Dallas
                  regional office, and A. Blaine Collins, Deputy Regional Inspector
                  General for Evaluation and Inspections.

                  Ruth Ann Dorrill and Christi Macrina served as team leaders for this
                  study. Deborah Cosimo served as the lead analyst. Other principal
                  Office of Evaluation and Inspections staff from the Dallas regional office
                  who contributed to this report include Anthony Guerrero-Soto; central
                  office staff who contributed to this report include Rita Wurm.




OEI-06-07-00471   ADVERSE EVENTS   IN   H O S P I TA L S : S TAT E R E P O R T I N G S Y S T E M S
                                                                                                     30
